  Pension Benefit Guaranty Corporation
       Office of Inspector General
           Evaluation Report




   PBGC Lawfully Terminated the
National Steel Plans, but Accepted Poor
    Quality Work from Contractors




           October 23, 2013

                               EVAL 2014-01/PA-09-66-2
Executive Summary
This report presents the results of our second evaluation addressing concerns from the Minnesota
Congressional delegation about PBGC’s actions when terminating certain steel plans located in
Minnesota. The National Steel Corporation (National Steel) was one of the largest integrated
steel producers in the United States. National Steel maintained eight defined benefit plans; seven
of those plans were terminated on December 6, 2002 and trusteed by PBGC on May 31, 2003.

Our overall objective was to evaluate PBGC’s actions in terminating and establishing benefits
for the Minnesota Steelworker pension plans. This included whether PBGC adhered to laws and
its own policy when it terminated the National Steel plans; whether the source document and
participant data audits were properly performed; and the effectiveness of PBGC’s oversight and
quality control processes for these data audits.

In brief, our review found that PBGC complied with its statute when making termination and
benefit decisions; however, its processes for validating participant information were seriously
flawed. PBGC acted within its authority to select the termination dates. Also, PBGC did not
violate the law when it made certain decisions that reduced pension benefits – in particular, in
establishing a termination date that resulted in shutdown benefits not accruing to National Steel
participants (Rule of 65 benefits).

In contrast, PBGC’s efforts to identify valid and accurate participant information necessary for
individual benefit calculations were unreliable for the seven terminated National Steel pension
plans. From 2003- 2005, PBGC’s contractor performed and PBGC accepted seven source
document audits and seven participant data audits for National Steel plans and relied on them to
establish the participant database used to value the individual participant benefits and the
liability. However, these fourteen audits for the National Steel plans failed to meet applicable
professional standards and PBGC protocols. This occurred because PBGC and its contractor did
not exercise due professional care in the conduct of these audits. Further, PBGC did not provide
effective oversight for the contractor; and accepted and paid for sub-standard audit work.

As a result of OIG’s review of PBGC’s processing of terminated National Steel and United
Airlines pension plans, 1 the Corporation has begun to address serious weaknesses in its benefit
operations. Since 2011, PBGC has made significant changes to entire benefits operations to
address those weaknesses. Therefore, we are not making any new recommendations to PBGC as
a result of our report on the processing of National Steel Plans’ terminations. We will continue
to monitor PBGC’s progress in improving operations, establishing and strengthening internal
controls, and conducting its oversight activities.

We provided a draft of this report to PBGC for review and comment. PBGC’s full response to
the official draft is in Appendix C of this report.


1
  See PBGC’s Plan Asset Audit of National Steel Pension Plans Was Seriously Flawed, No.2011-10/PA-09-66-1,
issued March 30, 2011 (http://oig.pbgc.gov/pdfs/PA-09-66-1.pdf), and PBGC Processing of Terminated United
Airlines Pension Plans Was Seriously Deficient, No.:2012-05/PA-10-72, issued November 30, 2011
(http://oig.pbgc.gov/pdfs/PA-10-72-1.pdf).


OIG Eval 2014-01/PA-09-66-2
                                                                                                             1
TABLE OF CONTENTS

Audit Report
                                                                             Page

Executive Summary                                                             1

Background and Objectives                                                     4

Findings                                                                      9

I. PBGC Did Not Violate ERISA in Termination and Benefit Decisions
   in the National Steel Plans                                                9

   A. PBGC’s Termination Decision for National Steel Complies with ERISA
     and Is Well-Documented                                                   9

  B. Calculation of Plan Funding Level at Termination is Different from
     On-going Funding under ERISA                                            16

  C. Anti-Cutback Law Is Not Applicable to PBGC                              20

II. PBGC’S Participant Data and Source Document Audits Provided Unreliable
    Results                                                                  21

  A. Contractor’s Work Was Seriously Flawed                                  21

  B. PBGC’s Oversight of the Contractor Was Inadequate                       24

III. PBGC’s Corrective Actions Initiated During OIG’s Review                 27

IV. Concluding Remarks                                                       28

Appendices
Appendix A: Scope and Methodology                                            29

Appendix B: PBGC Notice to National Steel Participants, Retirees and
Beneficiaries                                                                31

Appendix C: PBGC Response                                                    32




OIG Eval 2014-01/PA-09-66-2
                                                                                    2
Abbreviations

AICPA         American Institute of Certified Public Accountants
ABO           Accumulated Benefit Obligation
APP           Asset Protection Plan
BAPD          Benefits Administration and Payment Department
COTR          Contracting Officer’s Technical Representative
CPA           Certified Public Accountant
DOPT          Date of Plan Termination
ERISA         Employee Retirement Income Security Act of 1974
EVTAC         Eveleth Taconite Company
GAO           Government Accountability Office
IG            Inspector General
IMRG          Integrated Management Resources Group, Inc.
LTV           LTV Corporation
PBGC          Pension Benefit Guaranty Corporation
PDA           Participant Data Audit
PPA           Pension Protection Act of 2006
PRISM         Participant Records Information System Management
TPD           Trusteeship Processing Division
TWG           Trusteeship Working Group
USWA          United Steelworkers of America




OIG Eval 2014-01/PA-09-66-2
                                                                   3
Background and Objectives
Background
The Pension Benefit Guaranty Corporation (PBGC) protects the retirement incomes of nearly 43
million American workers in more than 26,000 private-sector defined benefit pension plans.
PBGC was created by the Employee Retirement Income Security Act (ERISA) of 1974 to
encourage the continuation and maintenance of private-sector defined benefit pension plans,
provide timely and uninterrupted payment of pension benefits, and keep pension insurance
premiums at a minimum. Defined benefit pension plans promise to pay a specified monthly
benefit at retirement, commonly based on salary and years on the job.

If a defined benefit pension plan terminates without sufficient assets to pay all promised benefits,
PBGC steps in and becomes trustee. At the time of termination, activities under a pension plan
such as benefit accruals and vesting cease. In addition to the terminated plan’s assets, PBGC
uses its own assets to pay benefits to insure that participants do not lose all their benefits.

Basic pension benefits a participant has earned are guaranteed by PBGC– such as pension
benefits at normal retirement age, and disability benefits - up to a monthly limit that is set by
law. Generally, the limit is permanently established for each pension plan based on the plan's
termination date. For some participants, however, the benefits the employer has promised are
greater than the legal limits PBGC can pay.

Congressional Request

The Office of Inspector General (OIG) received a request from U. S. Senators Amy Klobuchar
and Al Franken, and former U.S. Congressman James Oberstar to review and examine the work
of the PBGC regarding Minnesota steelworker pension plans. Beginning in 2002, when PBGC
terminated and trusteed several Minnesota steelworker pension plans, the pension benefits of
thousands of plan participants were reduced. While there were unique circumstances regarding
each plan termination, the Minnesota congressional members were concerned about the
perceived disparities between pension plan benefits for these steelworkers. Specifically, the
delegation requested clarity regarding the following: 2

     “Did the PBGC consistently apply the Employee Retirement Income Security Act
      (ERISA), as well as its own regulations and policies, when terminating and calculating
      the benefits of these plans [National Steel] as compared to similar plans?”

     “While PBGC granted ‘Rule of 65’ shutdown benefits to LTV Steel Mining participants,
      PBGC did not grant similar benefits to National Steel Pellet Company participants.
      Please report on the appropriateness, legality, and rationale for the disparate treatment.”


2
 Letter from U. S. Senators Amy Klobuchar and Al Franken, and former U.S. Congressman James Oberstar to
PBGC Inspector General Rebecca Anne Batts, dated August 2009.



OIG Eval 2014-01/PA-09-66-2
                                                                                                          4
     “ERISA prohibits employers from cutting back accrued employee retirement benefits
      (anti-cutback law). Plan participants contend that PBGC’s actions to reduce pension
      benefits represent a violation of the federal anti-cutback law.”

     “Please explain PBGC’s process for affixing the date of pension plan termination.
      Pension plan participants contend that PBGC improperly affixes the date of plan
      termination on the announcement of PBGC’s intention to assume a pension, rather than
      the date on when the PBGC officially becomes the trustee of the terminated pension
      plan.”

     “National Steel Pellet Company Hourly Wage participants contend their pension was
      fully funded and that their pension funds were improperly merged with other National
      Steel Corporation pension funds.”

This report is the second and final report to address the concerns of the Minnesota congressional
delegation and their constituents. In an effort to address these areas of concern, the OIG
reviewed selected aspects of PBGC’s benefit termination process. This report focuses on
PBGC’s process to collect and validate participant information essential to the determination of
participant benefits and PBGC’s handling of specific issues raised by the Minnesota
congressional delegations arising from the termination of the National Steel Corporation’s family
of seven pension plans. 3

National Steel Corporation

The National Steel Corporation (National Steel) was one of the largest integrated steel producers
in the United States that engaged in the manufacture and sale of a wide variety of flat rolled
carbon steel products sold primarily to the automotive, construction, and container markets.
National Steel was formed in 1929 through the merger of Great Lakes Steel Corporation,
Weirton Steel Corporation, and Hanna Iron Ore Company. It purchased Granite Steel
Corporation in 1971; it is headquartered in Mishawaka, Indiana. On March 6, 2002, National
Steel and 41 of its subsidiaries filed for relief under Chapter 11 of the United States bankruptcy
code. On May 20, 2003, National Steel sold substantially all of its assets for steel making and
finishing and its iron ore pellet operations to United Steel Corporation.

National Steel maintained eight defined benefit plans; seven of those plans were terminated as of
December 6, 2002 and trusteed by PBGC on May 31, 2003. The pension plan for the hourly
employees of the American Steel Corporation (the eighth plan) was not trusteed by PBGC;
instead, it was terminated as a standard termination since the plan was funded well enough to pay
all benefits owed to participants and beneficiaries. The seven National Steel plans trusteed by
PBGC are depicted in the table below.

3
 To adequately address the delegations concerns, we focused our evaluation on the terminated steel plans that
impacted Minnesota steelworkers and miners, namely those of the National Steel Corporation and the LTV
Corporation. Also, for comparative analysis, we also reviewed selected aspects of the Bethlehem Steel Corporation’s
plan termination. However, since aspects of the termination of the Thunderbird Mining Company’s pension plan
were in litigation during our review, we did not include this plan within our scope (Thunderbird Mining is a
subsidiary of the EVTAC Mining Company).


OIG Eval 2014-01/PA-09-66-2
                                                                                                                 5
                                    Pension Plan                            Number of Participants/
                                                                            Beneficiaries
    Granite City Pension Plan for Chemical Workers                                          1,360
    Weirton Retirement Plan                                                                11,962
    National Steel Corporation Retirement Plan                                              5,728
    National Steel Corporation Pension Plan Hourly Employees                               10,404
    Granite City United Steelworkers of America Pension Plan                                3,830
    Pension Plan for Salaried Employees of National Steel Pellet                             225
    National Steel Pellet Company Pension Plan for Wage Employees                           1,643

      Table 1: National Steel Corporation pension plans trusteed by PBGC. We did not audit this data, derived from
      PBGC’s Case Management System, a computerized system for tracking events and inquiries affecting pension plans.


Plan Terminations

In 2002, the PBGC recorded more than $9 billion in losses from actual or probable plan
terminations. Of that amount, $7.9 billion related to five steel plans: a $3.9 billion loss from the
termination of bankrupt Bethlehem Steel Corporation's massively underfunded pension plan; a
$1.9 billion loss from the takeover of several pension plans sponsored by failed steelmaker LTV
Corporation; a $1.3 billion loss from the termination of pension plans offered by the bankrupt
National Steel Corporation; and the much smaller losses of $0.5 billion for Kaiser Aluminum
and $0.3 billion for Republic Technologies from the terminations of their pension plans.

Fixing the Date of Plan Termination. PBGC can seek to terminate a pension plan if it makes
one of several determinations, including that PBGC’s “possible long-run loss may reasonably be
expected to increase unreasonably if the plan is not terminated.” 4 PBGC has exercised this
authority in a number of cases to terminate plans whose liabilities were expected to increase
substantially due to anticipated plant or company-wide shutdowns. This statutory scheme,
however, sometimes resulted in a race between the company to shut down a facility and the
PBGC to ask a court to terminate the plan (without advance notice to the company).
Furthermore, the law provides that, when PBGC terminates a pension plan, the date of plan
termination is "the date established by the [PBGC] and agreed to by the plan administrator." 5 If
an agreement on the date cannot be reached, pension law provides that the termination date is
established by the court. 6

Shutdown Benefits. Some pension plans offer benefits that are contingent on a certain event
occurring. A “shutdown benefit” is such a contingent-event benefit that is triggered by a plant
shutdown or permanent layoff. These benefits permit participants who meet certain age and
service requirements to begin receiving retirement benefits after a plant shutdown rather than
having to wait until normal retirement date. Shut-down benefits are generally not pre-funded by

4
    ERISA section 4042(a)(4), 29 U.S.C. 1342(a)(4).
5
    ERISA section 4048(a)(3), 29 I.S.C.1348(a)(3).
6
    ERISA section 4048(a)(4), 29 U.S.C. 1348(a)(4).



OIG Eval 2014-01/PA-09-66-2
                                                                                                                        6
the plan sponsor; that is, no money is put into the pension plan to cover the liability to the plan if
the participants become eligible for the benefits because the event occurred.

Provisions for shutdown benefits, a type of early retirement benefit, are found primarily in the
pension plans of large unionized companies in the auto, steel, and tire and rubber industries.
PBGC reports that fewer than five percent of workers in PBGC-insured plans have shutdown
benefit provisions in their plans. In pension plans of integrated 7 steel companies, shutdown
benefits provide an unreduced early retirement benefit as early as age 42 (i.e., a worker would
receive at age 42 the same monthly benefit he would have normally receive at age 62) plus a
$400 monthly supplement until age 62. 8 Once triggered, this early retirement benefit continues
to be paid, even if the worker finds new employment in the steel industry or any other industry.
Because the increased benefits are usually available to an entire group of participants (e.g., all
the eligible employees at the plant that shut down), the shutdown event can greatly increase a
plan’s liabilities in one stroke. Shutdown benefits may double or even triple the cost of a
worker’s benefit. Yet, this liability would not be funded through normal employer contributions
to the plan.

Under a PBGC regulation that has existed since 1975, shutdown benefits are guaranteed by
PBGC only if triggered prior to plan termination – that is, if the contingent event occurs before
the plan terminates. The regulation says, essentially, if the plan is terminated prior to a plant
shutting down, there are no shutdown benefits guaranteed by the agency. If, instead, the
company shuts down a facility or the entire company, shutdown benefits are guaranteed if the
plan terminates afterwards. It’s a timing issue. Thus, PBGC’s loss increases dramatically if
termination is delayed until after shutdown triggers payment of those benefits. Not only has the
company not paid money to the plan to fund these shutdown benefits, it also has not paid any
premiums to the PBGC to reflect the risk (and potential cost) of these benefits.

When a company is in bankruptcy and its assets are sold to a third party or liquidated, usually the
pension plan is terminated. This was the case with four large steel companies in 2001-2002 time
period: LTV Steel, National Steel, Republic Technologies, and Bethlehem Steel. All of these
steel companies’ pension plans provided for early retirement benefits for certain qualified
employees if all or part of the company were shut down, each company filed for bankruptcy
protection, and had pension plans that terminated. The table below reflects PBGC’s potential
shutdown benefit liability in 2002 for these four companies’ terminated pension plans.




7
  An integrated steel mill operates the complete cycle of production processes, taking in iron ore, coal and other raw
materials, and delivering finished steel products. In contrast, the non-integrated steel mills purchase scrap iron and
re-melt it in electric furnaces to make steel. The integrated producers are typically larger and use unionized labor,
while the smaller non-integrated steel producers typically use non-union workers. National Steel, LTV Steel, and
Bethlehem Steel all operated integrated steel mills.
8
  This is the so-called “Social Security bridge” provision. It is a supplement that plans may offer in connection with
early retirement provisions, including shut-down benefit provisions, but can be used in any plan in which one may
retire before reaching social security age (62), i.e., it is not limited to shutdown benefits.


OIG Eval 2014-01/PA-09-66-2
                                                                                                                     7
PENSION PLAN             PLAN TERMINATION PARTICIPANTS IN                             PBGC’S POTENTIAL
                         DATE             PENSION PLAN                                SHUTDOWN BENEFIT
                                                                                      LIABILITY
LTV Steel                March 31, 2002                           82,291                       $202 Million
Republic                 June 14, 2002                            6,237                        $96 Million
Technologies
National Steel           December 6, 2002                         35,404                       $348 Million

Bethlehem Steel          December 18, 2002                        97,015                       $566 Million

Table 2: PBGC’s potential shutdown benefit liability in 2002 for LTV Steel, Republic Technologies, National Steel and
Bethlehem Steel

The Pension Protection Act of 2006. Since the 2002 termination of the National Steel
significant changes have occurred in ERISA with the passage of the Pension Protection Act of
2006 (PPA). In particular, the PPA fixed the issue concerning when to set the plan termination
date for companies that have filed for bankruptcy protection. According to the PPA, the
bankruptcy petition date is deemed to be the plan termination date and any benefit accruing after
that date is not guaranteed. Therefore, if a shutdown triggering event occurred after the
bankruptcy date, shutdown benefits would not be guaranteed by PBGC.


Minnesota Steelworkers’ and Miners’ Concerns Regarding
PBGC’s handling of the National Steel Pension Plan Terminations

After receiving the request from members of the Minnesota congressional delegation to review
and examine the work of PBGC regarding Minnesota steelworker pension plans, we established
dedicated email and postal mail accounts to allow the steelworkers to send directly to our office
any concerns or comments they had regarding PBGC’s handling of their terminated pension
plans. From this effort, we received correspondence from 127 plan participants. After careful
review of each correspondence and a review of participant appeals, we determined the following
to be the participant’s major areas of concern:

     PBGC’s decision process for fixing the date of pension plan termination;

     Why National Steel participants were not granted shutdown benefits, such as the “Rule-
      of-65,” while such benefits were granted to LTV Steel participants;

     The difference in the plan funding levels reported by the plan sponsor versus those
      reported by PBGC; and

     Whether PBGC’s actions to reduce pension benefits represented a violation of the federal
      anti-cutback law.




OIG Eval 2014-01/PA-09-66-2
                                                                                                                        8
Objectives
Our overall objective was to evaluate PBGC’s actions in terminating and establishing benefits
for the Minnesota Steelworker pension plans. 9 For this report, our specific objectives were to
determine for the National Steel pension plans: (1) whether PBGC adhered to applicable laws,
and its own policy, when performing selected aspects of the pre-termination and trusteeship
processes; (2) whether the source document and participant data audits met applicable
professional standards; (3) whether the audits were conducted in accordance with contractual
terms and PBGC’s established protocols; and (4) the effectiveness of PBGC’s oversight and
quality control processes for these data audits.

Fieldwork for this evaluation was performed from December 2010 through May 2012. The
evaluation was conducted in accordance with the Quality Standards for Inspections established
by the Council of the Inspectors General on Integrity and Efficiency, as well as applicable OIG
policies and procedures. These standards require that we plan and perform the evaluation to
obtain sufficient, competent, and relevant evidence to provide a reasonable basis for our
conclusions based on our evaluation objectives. We believe that the evidence obtained provides a
reasonable basis for our conclusions based on our evaluation objectives.

Findings
I. PBGC Did Not Violate ERISA in Termination and Benefit Decisions in the
   National Steel Plans

     A. PBGC’s Termination Decision for National Steel Complies with ERISA and Is
        Well-Documented
PBGC did not violate ERISA or its own policy in termination and benefit decisions with respect
to the National Steel pension plans. The termination record for National Steel provides adequate
justification as to why PBGC moved to terminate the National Steel plans prior to the shutdown
of operations, which resulted in participants’ ineligibility for shut-down benefits.

PBGC’s Termination Decisions are made on a Case-by-Case Basis

While one of PBGC’s missions is to encourage the continuation of private pension plans, 10 it
also must protect the long-run health of the PBGC’s pension insurance program. In ERISA
section 4042, PBGC was given the authority to involuntarily terminate a defined benefit pension
plan

9
  To adequately address the Minnesota delegations concerns, we decided to focus our review work on the terminated
steel plans that impacted Minnesota steelworkers and miners, namely the National Steel Corporation and the LTV
Steel Company, Inc. Because certain aspects of the termination of the Thunderbird Mining Company’s pension plan
was in litigation during our review, we did not review this plan (Thunderbird Mining is a subsidiary of the EVTAC
Mining Company).
10
     ERISA 4002(a)(1), 29 U.S.C. 1302(a)(1).


OIG Eval 2014-01/PA-09-66-2
                                                                                                                9
when any of four statutory criteria was met:

     1. The plan has not met its minimum funding standard;
     2. The plan will be unable to pay benefits when due;
     3. The reportable event relating to certain payments to a substantial owner; or
     4. The possible long-run loss to PBGC with respect to the plan “may reasonably be
        expected to increase unreasonably if the plan is not terminated.”
PBGC monitors the financial health of the plans it insures; National Steel was one of those plans.
While National Steel was attempting to reorganize under Chapter 11’s bankruptcy proceedings
(petition filed on March 6, 2002), PBGC was analyzing the company’s ability to continue
funding and maintaining the plans. In a memorandum to the Trusteeship Working Group
(TWG), 11 PBGC financial analysts recommended that PBGC seek involuntary termination of
seven of the eight National Steel plans based on the following application of ERISA 4042(a)
termination criteria:

•    “National has not made any minimum funding contributions to the four largest of the Plans
     for a full year, the missed contributions now total about $150 million. The Plans are
     collectively underfunded by about $1.5 billion, of which $1.2 billion is attributable to the
     four largest plans. In addition, all of the Plans have shutdown benefit provisions which, if
     triggered, would boost the aggregate underfunding to approximately $2.2 billion. For the
     four largest plans, these missed contributions satisfy the criterion of ERISA § 4024(a)(1).”
•    “In addition, because each of the seven Plans has a funded ratio of only about 50%, and
     because National has no realistic prospect of adequately funding them, they meet the
     criterion of ERISA 4042 § (a)(2).”
•    “Finally, because National has stopped funding the Plans while continuing to pay out plan
     benefits (including nonguaranteed benefits), and because a purchase of National’s assets
     could under certain circumstances trigger some $350 million in guaranteed shutdown
     benefits, there is a significant risk that PBGC’s long-run loss will increase unreasonably if
     the Plans are not terminated, satisfying the criterion of ERISA § 4042(a)(4)."
This TWG recommendation memorandum was supported by much documentation, including an
analysis performed by a contracted financial analysis firm who specialized in the metals industry.


11
   The Trusteeship Working Group is an interdepartmental group made up of voting members which include the
TWG Chairperson. The TWG is comprised of least two voting members from the following disciplines: actuaries,
financial analysts, auditors and attorneys. The TWG is to objectively review a recommendation to terminate a
pension plan to ensure that: (1) the administrative record supporting the termination decision is complete; (2) the
various actuarial, financial, factual and legal issues in the case are appropriately developed; and that (3) the
termination criteria have been met based on the relevant statutory criteria.




OIG Eval 2014-01/PA-09-66-2
                                                                                                                      10
The Trusteeship Working Group concurred in this recommendation on December 4 and
sent the recommendation to the Director. Under PBGC’s processes, the PBGC Director
was established as the approving official for termination determinations at this dollar
level. On December 5, 2002, the Director signed Notices of Determination (NOD) to
terminate the seven National Steel pension plans which stated, in part: “PBGC intends to
proceed pursuant to ERISA § 4042, 29 U.S.C. §1342, to have the Plans terminated and
PBGC appointed as statutory trustee, and pursuant to ERISA §- 4048, 29 U.S.C. § 1348,
to have December 6, 2002, established as the Plans' termination date.”

PBGC served notice of its termination decision in multiple ways. The NODs were sent to the
plan sponsor. PBGC immediately issued a press release announcing its intention to terminate the
National Steel plans. From this press release, national newspapers (e.g., Wall Street Journal) and
local newspapers in geographic areas where the National Steel companies were located reported
that PBGC was terminating the plans. PBGC also prepared a Notice to all National Steel
Corporation participants, retirees and beneficiaries dated December 6, which is reproduced in
Appendix B, that stated, in part:

       The Pension Benefit Guaranty Corp. ("PBGC"), a United States government
       agency, has determined under provisions of the Employee Retirement Income
       Security Act of 1974 ("ERISA") that the above pension plans must end and that
       the PBGC must become statutory trustee of the pension plans. PBGC has
       determined that the company's sponsorship of the pension plans will end on
       December 6, 2002. As of that date, participants cannot earn any additional
       benefits under the plans.

Moreover, National Steel issued a memorandum to all employees on December 6 notifying them
of PBGC’s “intention to seek to assume responsibility for seven of eight National Steel
Corporation pension plans.” As of December 6, 2002, the participants had official notice that
their pension plans were going to be terminated and they should not have expected to accrue any
additional benefits as of that date.

Setting the National Steel Plans' Termination Date

On May 31, 2003, PBGC entered into a Trusteeship Agreement with National Steel and set the
plans’ termination date as December 6, 2002. Though the Trusteeship Agreement followed the
NOD by almost six months and may appear to be a "retroactive" termination date, the
termination date remained the same date – December 6, 2002 – that PBGC established in the
NOD and published in the public Notices.

Many courts of appeals have affirmed PBGC's authority to establish the termination date. In an
analogous pension plan involving steelworkers that was terminated in 2002 with similar
circumstances as National Steel, PBGC took action to terminate the plans before shutdown
benefits would accrue, and the Sixth Circuit Court of Appeals upheld PBGC's termination date.

In PBGC v. Republic Technologies International, LLC and United Steelworkers of America, 386
F.3d 659, 662-664 (Oct. 1, 2004), the Sixth Circuit recited the following facts:



OIG Eval 2014-01/PA-09-66-2
                                                                                                11
•   Republic Technologies International (RTI) was a leading producer of special bar quality steel
    products; it had two defined benefit pension plans that provided shutdown benefits; RTI filed
    for bankruptcy in 2001.
•   RTI and the Steelworkers union negotiated a "shutdown agreement" in April 2002 that
    specified that sale to the potential purchaser would constitute a shutdown under the pension
    plan provisions. The bankruptcy court scheduled a hearing for July 9 to approve the
    agreement. The sale to the purchaser closed on August 16, 2002.
•   PBGC's Trusteeship Working Group met on June 11, 2002, to consider the recommendation
    that the plans be terminated; the plans were severely underfunded; the TWG memo stated:
    "shutdown benefits potentially increased the amount of unfunded liabilities for the plans by
    almost $96 million." The TWG concurred in the terminations.
•   On June 12, 2002, the PBGC Director issued a Notice of Determination establishing June 14,
    2002 as the plans' termination date.
In considering whether the plans' termination date should be June 14 (as set by PBGC) or August
17 (the day after the asset sale), the Sixth Circuit analyzed and adopted a two-part approach that
had been applied by several other circuit courts: (1) determine the earliest date when the
participants had actual or constructive notice of the plan's termination, “i.e., sufficient notice to
extinguish their reliance interests;” and (2) once that date is determined, "then select whatever
later date serves the interest of PBGC." Applying this test, the court then concluded:

       After the employees received notice that PBGC intended to terminate the pension plans
       on June 14, the participants "no longer had a justifiable expectation in the accrual of
       vested pension rights."... In this case, PBGC, a self-financing public insurance
       corporation, is seeking an earlier termination date in order to protect its insurance fund
       from continued accruals of liabilities of unsound plans. ... Every court to consider the
       issue has concluded that expectation interests in the accrual of benefits are extinguished
       on the date the participants receive reasonable notice from PBGC that the plan is going to
       be terminated. (386 F.3d at 666-667).

These facts are very similar to those in National Steel. The pension plans provided for shutdown
benefits. While National Steel was in bankruptcy and negotiating an asset sale with United Steel
Corporation, PBGC took considered action based on ERISA 4042 to involuntarily terminate the
pension plans - including considering the $350 million liability for shutdown benefits that could
accrue. The Director signed Notices of Determination on December 5, 2002 and it was
published the following day. The asset sale to United Steel culminated in May 2003. However,
once PBGC issued the Notice on December 6 that specifically stated: “[a]s of that date,
participants cannot earn any additional benefits under the plans,” the participants "expectation
interest in the accrual of benefits are extinguished." For the National Steel pension plans, that
date was December 6, 2002.




OIG Eval 2014-01/PA-09-66-2
                                                                                                   12
Differences Between LTV and National Steel Terminations

The Minnesota Congressional delegation and the National Steel participants point to the near-by
LTV Steel companies, who also had defined benefit pension plans that provided shutdown
benefits. Shortly before the National Steel terminations, PBGC did not move to terminate three
pension plans sponsored by LTV Steel, resulting in the accrual of over $200 million in shutdown
benefits to those participants. This is the crux of the Minnesota Steelworkers complaint that they
were treated differently – and unfairly. As outlined above, each pension plan is treated
differently, as ERISA section 4042 requires PBGC to examine the particular facts and
circumstances of an individual plan against the statutory criteria to make a decision whether that
plan must be terminated.

The LTV pension plans in which participants received shutdown benefits are LTV Steel Mining,
LTV Hourly and LTV Salaried. A few facts about the timelines of these plans follow:

•    LTV Steel Mining Pension Plan. On December 6, 2000, LTV Steel announced that iron
     mining and pellet production at the LTV Steel Mining Company, located in Minnesota,
     would cease permanently on February 24, 2001. On December 29, 2000, LTV Steel
     Corporation filed for Chapter 11 bankruptcy protection and shortly thereafter, on January 5,
     2001, LTV Mining Company shut down its operations. PBGC did not terminate LTV Steel’s
     mining pension plan until March 31, 2002, which was after shutdown benefits had accrued to
     the miners.
•    LTV Steel Hourly and Salaried Pension Plans. Throughout LTV’s bankruptcy the
     company had been losing cash at a rate of over $1 million a day and was projected to run out
     of liquidity by the end of December 2001. LTV had applied for a $250 million government-
     guaranteed loan under the Emergency Steel Loan Guarantee Act ("ESLGA"), which was
     believed to be essential for LTV to survive. On November 20, 2001, after having been in
     bankruptcy for 11 months, LTV petitioned the bankruptcy court for approval to implement an
     "asset protection plan" (APP) 12 to close operations at various steel manufacturing sites and to
     sell-off LTV steel assets. Since LTV plans (including the miners) shutdown before PBGC
     terminated them, millions in shutdown benefits accrued to the LTV participants.

     PBGC’s Trusteeship Working Group (TWG) convened an informational meeting on
     November 29, 2001 to discuss the turn of events related to LTV. At this meeting, details
     were presented that, if the LTV plans were not terminated prior to the December 4th court
     hearing, PBGC would likely incur a $200 million increase in unfunded liabilities as the result
     of the accrual of shutdown benefits if the bankruptcy court approved the APP motion. This
     informational meeting memorandum, however, did not become an official recommendation
     to the TWG to terminate. PBGC did not terminate the LTV plans prior to the December 4th
     court hearing, thereby allowing $200 million in unfunded shutdown benefits to accrue. Just a
12
  The asset protection plan provided for the cessation of operations and the maintenance of selected assets for sale.
Steel facilities were to be hot-idled for nine weeks while the facilities were taken through an accelerated auction.



OIG Eval 2014-01/PA-09-66-2
                                                                                                                    13
     few days following this TWG meeting, the court approved LTV’s motion and shortly
     thereafter, as predicted, the company shut down its major operations and declared shutdown
     benefits for both its hourly and salaried employees – a bill, which the bankrupt company
     would not be paying, but rather PBGC. In April 2002, LTV’s integrated steel business was
     sold and the purchaser did not assume any of its pension plans. PBGC terminated and
     trusteed LTV’s pension plans in March 2002.

Just a few months after incurring this $200 million unfunded shut down liability for LTV
participants, PBGC moved swiftly to take termination action prior to National Steel, RTI, and
Bethlehem Steel’s plant shutdowns, thereby avoiding the accrual of shutdown benefits for
participants of these plans. When PBGC learned that these bankrupt steel companies were
planning to sell their assets and thereby possibly trigger company shutdowns, with
accompanying shutdown benefits, PBGC moved to terminate these plans prior to their asset
sales. PBGC’s prompt actions in these three steel cases precluded the agency from incurring
huge unfunded early retirement benefits for participants - close to $350 million in unfunded
shutdown liabilities for National Steel, $95 million for RTI, and in excess of $500 million were
averted for Bethlehem Steel. 13

The PBGC record does not contain documentation why PBGC did not act to terminate the LTV
plans prior to plant shutdowns (and assumption of a $200 million unfunded shutdown benefit
liability) when it had information that this scenario was likely. As part of OIG's inquiry as to
why the Corporation chose to treat seemingly similarly situated bankrupt companies differently
when determining when to termination, the OIG interviewed the then-current director of PBGC,
Steven Kandarian. Mr. Kandarian became PBGC's Director on December 3, 2001 - the same
month LTV filed its APP motion. He stated the decisions to terminate the various steel plans
were his.

•    At the time he arrived he thought LTV could be saved, but did not think National Steel and
     Bethlehem Steel had any chance of survival.
•    He thought LTV still had a chance of obtaining a government loan and did not want the
     actions of PBGC to inadvertently interfere with such.
•    After the LTV shutdown on December 19, 2001, PBGC’s immediate assumption of unfunded
     benefit liabilities (including $200 million in shutdown benefits), resulted in about a 20
     percent reduction in PBGC’s assets.
•    He studied the ERISA system carefully and determined that PBGC must “get out front” on
     these cases and he decided they would err on the side of taking plans sooner before shutdown
     benefits could accrue.

13
   Like in the RTI plans' terminations, in the Bethlehem Steel case, PBGC gave 2 days’ notice of the PBGC-initiated
termination. Largely, because PBGC had been criticized for involuntarily terminating pension plans without prior
notice, however, the day in between the notice and the day PBGC took legal action to terminate the plan,
Bethlehem’s corporate executives shut down one facility, resulting in 188 workers at Bethlehem Steel’s Steelton,
Pennsylvania facility receiving approximately $14.5 million in shutdown benefits.



OIG Eval 2014-01/PA-09-66-2
                                                                                                                 14
•      He felt this would be the “greater good to PBGC,” weighing the health of the pension
       insurance system as a whole for all covered participants against the interests of the
       participants in a particular plan to receive unfunded benefits.

Mr. Kandarian’s statements to the OIG are supported by contemporaneous statements he made to
a newspaper. In a 2002 article in the Cleveland Plain Dealer, the former director was quoted as
stating, “…the agency did not step in earlier at LTV because efforts were being made to get a
government loan and emerge from bankruptcy. …it would have sent a terrible message if an
agency picked up the pension burden of a company that was seeking a loan from another arm of
government. They tried to keep LTV alive.”

Further, Mr. Kandarian’s current explanation is documented in his 2003 responses to two
Congressional letters when U.S. senators inquired about the timing of these large steel
terminations and why LTV participants received shutdown benefits and those in the Bethlehem
and National Steel plans, whose companies failed about the same time, did not. In response to a
letter from an Indiana senator, then-PBGC Director Kandarian reported the following: because
National Steel and Bethlehem Steel were in bankruptcy and had no intention of continuing their
pension plans in the long term, PBGC moved to terminate the plans before major shutdowns
occurred. If the plans terminations were postponed until shutdowns had occurred, the increased
liability due to these unfunded shutdown benefits would ultimately be borne by the remaining
participants in the defined benefit system. 14 Likewise, in response to a letter from a senator from
Maryland, former PBGC Director Kandarian stated: “In the case of LTV, it was not clear until
late in the bankruptcy that the company would liquidate and that PBGC would become
responsible for LTV’s pension plans…. With Bethlehem Steel, it was clear early on that the
pension plan would have to be terminated. In fact, PBGC officials began discussions with
Bethlehem Steel regarding possible pension plan termination shortly after the bankruptcy filing.”
The director went on to state that, “PBGC has clearly indicated to steel companies and to the
USWA 15 that it does not favor payment of shutdown benefits in the context of a company sale or
liquidation where the pension plans will not be continued.” 16

From the records, PBGC acted within its authority in ERISA 4042 in making termination
decisions and establishing plan termination dates for both the National Steel and LTV Steel
pension plans. Though PBGC’s records do not explain the rationale for PBGC waiting to
terminate LTV, subsequent contemporaneous documents do. In a matter like LTV, where
PBGC's exposure is large, appears imminent, there are recommendations to take action and
PBGC decides not to do so, it would be a best practice to record the factors PBGC considered to
support its decision that it was in the best interests of the government not to take action at that
particular time.



14
     February 2003 letter from Mr. Kandarian to Senator Bayh’s January 2003 letter.
15
     United Steelworkers of America.
16
     February 2003 letter from Mr. Kandarian to Senator Mikulski’s January 2003 letter.



OIG Eval 2014-01/PA-09-66-2
                                                                                                  15
      B. Calculation of Plan Funding Level at Termination is Different from
         On-going Funding under ERISA

Many of the participants of the terminated National Steel Pellet Hourly Pension Plan expressed
concern about the vast difference between their plan’s funded status, as reported by the plan
sponsor, and the funded status reported by PBGC once the agency took over the plan. The
difference between these two reported funding levels led to the Pellet Hourly Wage participants’
contention that their pension plan was fully funded and should not have been taken over by
PBGC. Specifically, an undated document entitled “Notice to Participants of National Steel
Pellet Company Pension Plan for Hourly Wage Employees,” 17represented that the Pellet Hourly
Plan was 88.3 percent funded as of January 1, 2000. As of the plan’s December 6, 2002
termination date, however, PBGC calculated the plan was only 40 percent funded, with total
underfunding of $72 million. There are many reasons for this difference.

Congress drafted ERISA to govern pension plans: in Title I of ERISA, Congress provided rules
governing the operation of pension plans by the companies that sponsor the plans; in Title IV,
Congress created a pension insurance program administered by PBGC for defined benefit
pension plans and provided the sole means to terminate these plans. In Title I, Congress set out
specific and detailed provisions regarding how plan sponsors are to value the assets and benefit
liabilities of the pension plan in compliance with rules established by the Secretary of Treasury,
and in accordance with the Internal Revenue Code. 18 In Title IV, Congress established different,
and less detailed, provisions for PBGC’s valuation of assets and benefit liabilities; 19 Congress
also gave PBGC express authority to issue regulations to implement the statute. 20
Prior to the enactment of the Pension Protection Act of 2006 (PPA), ERISA section 4011
required that certain underfunded plans provide to their participants and beneficiaries a notice of
the plan’s funding status. 21 The determination of “plan funding” is complex, using many
different assumptions. To understand the divergence between the funding calculations that are
used before and after a plan terminates, consider the different methods set out in ERISA (prior to
enactment of PPA) –that actuaries used to estimate the liability for the present value of the future
benefits – i.e., the eventual pension payments that retirees will receive. Prior to PPA, the


17
  Because this “Notice” is not on National Steel’s letterhead and contains information about PBGC, it may appear
that it was issued by PBGC. However, PBGC does not issue such notices to plan participants. Rather, the notice
followed the model document PBGC provided for plans to use to meet the notice to participant requirements in then-
ERISA 4011 for certain underfunded plans (see http://www.pbgc.gov/res/other-guidance/tu/tu00-2.html.).
18
  ERISA section 302 “Minimum Funding Standards” (29 U.S.C. 1082) in effect at the time the National Steel plans
were operating and terminated was repealed by the Pension Protection Act of 2006 (Pub. L. 109-280). References in
this report are to the statute in effect at the time.
19
     ERISA section 4044, 29 U.S.C. 1344, and implementing regulations at 29 C.F.R. 4044.
20
     ERISA 4002(b)(3); 29 U.S.C. 1302(b)(3).
21
  ERISA section 4011 was repealed by the Pension Protection Act of 2006; new section ERISA section 101(f) now
requires annual notices to participants regardless of funding status.



OIG Eval 2014-01/PA-09-66-2
                                                                                                               16
funding status reported to participants was determined using the “current liability” 22 method,
while PBGC used (and still uses) the “termination liability” method. Current and termination
liabilities differ because the assumptions used to calculate them differ.

       •   The current liability method measured the value of accrued benefits using detailed
           assumptions specified in ERISA and other applicable laws and regulations. Current
           liability represented an estimate of the benefits earned to date, assuming that the sponsor
           would remain in business and the plan and its liabilities continues.

       •   The termination liability method begins from a different point – the plan is not continuing
           and the liabilities are now fixed. The termination liability reflects the cost to settle
           pension obligations in the private market – that is, the cost to purchase annuities to satisfy
           all benefit obligations of the plan as of the date of plan termination.

       •   Another important factor in the difference between the two funding percentages is how
           the plan’s assets are valued. Prior to PPA, plan sponsors could value the plan assets “on
           the basis of any reasonable actuarial method of valuation which takes into account fair
           market value,” 23 while PBGC was (and still is) required to value the assets at fair market
           value “based on the method of valuation that most accurately reflects such fair market
           value. 24

       •   Interest rates and retirement assumptions are key factors used in both these methods, and
           Federal law gives plan sponsors some choice in selecting the assumptions used to
           calculate the current plan liability. The degree to which the factors the plan used differ
           from those used by PBGC to calculate termination liability will impact the degree of
           difference between the two. For instance, for the purpose of reporting to participants the
           plan’s current liability, Federal law required the plan sponsor to select the highest interest
           rate from within a permissible range of rates. 25 On the other hand, to calculate
           termination liability, PBGC uses an interest rate that is derived from annuity price
           surveys of insurance companies facilitated by the American Council of Life Insurers.

       •   Assumptions about when participants will retire also differ between the two
           calculations. For ongoing plans, Federal law required actuaries to use “reasonable”

22
  ERISA section 302(d)(7), 29 U.S.C. 1082(d)(7) defined “current liability” in the then-current Minimum Funding
Standards provision. ERISA does not refer to a “current liability method;” the OIG is using that as a reader-friendly
way to differentiate between the method used by plan sponsors and that used by PBGC. We also note this section
was repealed by PPA in 2006 and replaced with a new section 302.
23
     Then-current ERISA section 302(c); 29 U.S.C. 1082(c) (since repealed and replaced under PPA).
24
     29 C.F.R. 4044.41(b).
25
  Then-current 29 C.F.R. § 4011.10(c) stated: “The Notice Funding Percentage that must be included in the
Participant Notice for a plan year is the ‘funded current liability percentage’ (as that term is defined in section
302(d)(9)(C) of ERISA) for that plan year or the prior plan year.” (http://www.pbgc.gov/res/laws-and-
regulations/code-of-federal-regulations/part-4011---disclosure-to-participants.html). At that time, ERISA section
302(d)(9)(C) specified that plans were required to use the highest permitted interest rate.



OIG Eval 2014-01/PA-09-66-2
                                                                                                                      17
         assumptions based on their “best estimate” of when people will retire, taking into account
         the specific experience of the plan and reasonable expectations. 26 On the other hand, for
         termination liability calculations, PBGC issued regulations defining “expected retirement
         age” based on its experience that when a plan terminates, it’s more likely that people will
         lose their jobs and will elect to retire at the earliest date. 27


Hence, the relationship between “current liability” and “termination liability” is variable and
complex. Further, as noted by the Government Accountability Office (GAO), “because of
leeway in the actuarial methodology and assumptions that sponsors may use to measure plan
assets and liabilities, underfunding may actually have been more severe and widespread than
reported on the [pension plan’s] Form 5500”, Annual Return/Report of Employee Benefit
Plan.” 28

Adding to this complexity is the fact that plan sponsors – then and now – are not required to
provide data that would help participants understand the different methods for calculating the
funding status of plans and the consequences of pension underfunding and plan terminations.
Specifically, the notices to participants are not required to disclose that the plan sponsor values
the plan’s funding status on an on-going basis, whereas PBGC values the plan’s liability on a
termination basis. This causes workers, such as the Pellet Hourly participants, to be shocked and
dismayed when PBGC reports that their plan was funded at a ratio that was less than half of what
they expected.

PBGC’s use of the termination liability method to value the National Steel plans’ liability, rather
than the current liability method established under ERISA Title I for on-going plans, recognized
Congress’ different treatment of terminated and on-going pension plans. 29

In addition to the different valuation methods, economic conditions impact the actual value of
plan assets. In a report that examined weaknesses in ERISA’s funding rules, GAO noted
“Factors that increased the severity of plans’ unfunded liability in 2002 [the year National Steel
plans terminated] were the recent sharp decline in the stock market and a general decline in

26
  Internal Revenue Code section 412(c)(3) that was in effect when National Steel plans were terminated provided
that, for single-employer plans, “all costs, liabilities, rates of interest, and other factors under the plan shall be
determined on the basis of actuarial assumptions and methods . . . each of which is reasonable (taking into account
the experience of the plan and reasonable expectations)…”; this statute was repealed by PPA.
27
   29 C.F.R. § 4001.2 definition of “Expected retirement age,” (XRA) and XRA regulations at 29 C.F.R.
§§ 4044.55-.57; see Preamble to regulations for PBGC explanation, 46 Fed. Reg. 9492, 9495-97 (Jan. 28, 1981)
(interim rule), adopted as final rule without change, 47 Fed. Reg. 15780 (April 13, 1982).
28
  Recent Experiences of Large Defined Benefit Plans Illustrate Weaknesses in Funding Rules, GAO-05-294 (May
2005), pages 3 and 4.
29
  The OIG makes no representation about the accuracy of PBGC’s determination that the National Steel plans were
47 percent funded. As we have previously determined, the plan asset valuation was seriously flawed; in this report,
we find that the benefit liability determination is also seriously flawed. PBGC compares the value of plan assets to
benefit liabilities to determine the plan’s funded status.



OIG Eval 2014-01/PA-09-66-2
                                                                                                                         18
interest rates.” 30 Using the Bethlehem Steel plan as an example, GAO observed the following
facts:

           •   The Forms 5500 submitted by the Bethlehem Steel Corporation for plan years 1992-1999
               showed the plan’s funding increased from 86 percent to 97 percent [i.e., the current
               liability].
           •   By the time the plan terminated in December 2002 “plan funding fell to 45 percent as
               assets decreased and liabilities increased, and sponsor contributions were not sufficient
               to offset the changes.” 31 [i.e., termination liability].
           •   Seventy-three percent of Bethlehem Steel’s $6.1 billion plan assets were in domestic and
               foreign stocks as of September 30, 2000.
           •   In 2001, those assets had decreased by $1.5 billion (about 25 percent) and by plan
               termination in December 2002, its assets had been reduced another 23 percent to about
               $3.5 billion.32
           •   Thus, within two years, the plan’s assets, in actual value, had decreased by 43 percent.


GAO also noted in this report that a 2002 survey of pension plan investments “indicated that
defined-benefit plans in general had about 62.8 percent of their assets invested in U.S. and
international stocks in 1999.” 33

These Bethlehem Steel plan facts are similar to National Steel Pellet Hourly plan: National Steel
reported to participants that their plan funding status in 2000 was 88.3 percent, but when the plan
terminated in December 2002, PBGC determined the plan was only 40 percent funded to cover
the benefit liabilities. Indeed, documents prepared by National Steel in 2001 and 2002 and
submitted to the Federal government showed the same decline in asset value as GAO noted for
Bethlehem Steel.

We note that in the Form 10-Q filed with the Securities and Exchange Commission for the third
quarter of 2002, National Steel Corporation reported:

               Due to the sharp decline in the value of equity holdings in the Company’s pension
               trusts, the September 30, 2002 market value of the assets in the National Steel
               employee pension plans is significantly lower than previously anticipated and will
               continue to be lower than the accumulated benefit obligation (ABO). In addition,


30
  Testimony of Barbara D. Bovbjerg, GAO Director, Education, Workforce & Income Security Issues, Changing
Funding Rules and Enhancing Incentives Can Improve Plan Funding, GAO-04-176T, October 29, 2003, page 7,
based on report GAO-04-176.
31
     Id.
32
     Id.
33
     Id. at 7-8.


OIG Eval 2014-01/PA-09-66-2
                                                                                                            19
           since our Chapter 11 filing, while we have continued to accrue pension expense,
           we have not made funding payments to the pension trust.”

Thus, in addition to ERISA’s different treatment of current and termination liability calculations,
changed economic conditions added to the vast difference between National Steel Pellet Hourly
Plan’s reported funding value in 2000 of 88.3 percent and PBGC’s termination value in
December 2002 of 40 percent.


      C. Anti-Cutback Law Is Not Applicable to PBGC

Participants in the terminated National Steel Pellet Hourly Pension Plan asserted that PBGC had
violated the anti-cutback law when it calculated their benefits. The participants expected to
receive a certain benefit amount based on their years of work, however, when PBGC terminated
and trusteed their pension plan many participants learned that they would receive a reduced
benefit. Based on our review, PBGC did not violate the anti-cutback law when it reduced the
participants’ benefits but rather implemented ERISA required reductions in participants’ pension
benefits.
During our review, eight National Steel participants sent correspondence to our office stating that
PBGC had violated the anti-cutback law. In addition, in numerous telephone conversations and
in our meeting in Minnesota, 34 many of the steelworkers stated their belief that PBGC violated
the “anti-cutback” rule when PBGC’s calculation resulted in a reduced benefit. In one letter, a
National Steel pension participant cited that PBGC “guarantees pensions up to $3,000, and I see
no reason why my pension was cut” to $992.92. Another participant’s letter sums up the
steelworkers’ position:

       “Anti-cutback rule states that benefits already earned cannot be taken away from you. So the
       benefits you had accrued before the plan changed cannot be reduced.”


Specifically, the anti-cutback rule in ERISA § 204 35 states:

           The accrued benefit of a participant under a plan may not be decreased by an amendment
           of the plan, other than an amendment described in section 302(d)(2) or 4281.




34
   At the Request of Senators Franken and Klobuchar, on April 15, 2011, the IG provided a briefing to National
Steel participants in Minnesota to share the results of our first report regarding PBGC’s processing of terminated
Minnesota steelworker pension plans.

35
     29 U.S.C. § 1054(g)(1); there is a companion rule in the Internal Revenue Code at 26 U.S.C. §411(g)(1).



OIG Eval 2014-01/PA-09-66-2
                                                                                                                     20
On its face, this statute does not apply to PBGC. Section 204 plainly states that an accrued
benefit “may not be decreased by an amendment to the plan [emphasis supplied].” 36 Section 204
prohibits a defined benefit pension plan from being amended to reduce accrued benefits – that is,
the benefits of current plan participants that relate to their past service cannot be reduced through
a plan amendment. A plan can only be amended while it is operational; once a plan is
terminated, it cannot be amended. Thus, the anti-cutback rule applies to on-going pension plans
not to PBGC.

ERISA contains different regulations for active and terminated plans. In fact, ERISA requires
PBGC to make certain reductions in a participant’s benefit, beginning with the precept that the
benefit amount “guaranteed” by PBGC is the monthly benefit to which the participant would be
entitled at age sixty-five. 37 The “phase-in” of benefits that have been in effect for less than 60
months prior to plan termination is another statutory reduction that PBGC must implement. 38
When a pension plan terminates and PBGC becomes trustee of the plan, it applies ERISA’s
benefit provisions and reduces – or “cuts back” – the participants’ benefits to the level that are
permitted under ERISA Title IV. 39

Therefore, PBGC did not violate ERISA’s anti-cutback provision but instead applied ERISA
Title IV required benefit reduction provisions when it reduced participants’ benefits. 40


II. PBGC’s Participant Data and Source Document Audits Provided Unreliable
   Results

       A. Contractor’s Work Was Seriously Flawed
Serious sampling errors plagued PBGC’s efforts to determine the accuracy and validity of the
information contained in the participant databases for the National Steel plans. Specifically,
PBGC’s contractor incorrectly calculated sampling error rates, ignored high error rates and
began testing the participant databases prior to the inclusion into the databases hundreds of
eligible participants.

Additionally, when performing the source document audits, PBGC’s contractor did not
document the testing of the source documents obtained from the plan sponsor; nor did the

36
  In Battoni v. IBEW Local Union No 102 Employee Pension Plan, the Third Circuit Court of Appeals addressed the
interpretation of § 204 and stated: “To state a claim for violation of ERISA’s Anti-Cutback rule one must show (1)
that a plan was amended and (2) that the amendment decreased an accrued benefit.” 594 F.3d 230 (3rd Cir. 2010).
37
     ERISA § 4022(b)(3), 29 U.S.C. 1322(b)(3).
38
     ERISA § 4022(b)(1), 29 U.S.C. 1322 (b)(1).
39
     ERISA § 4042(d)(1)(b)(i) , 29 U.S.C. 1342 (d)(1)(b)(i).
40
   During this review, we did not consider PBGC’s application of ERISA’s benefit reduction provisions and,
therefore, makes no representation as to whether PBGC applied them appropriately.



OIG Eval 2014-01/PA-09-66-2
                                                                                                               21
contractor assess the plan sponsor’s internal control system to help determine the validity and
accuracy of the participant data supplied by the sponsor and used by PBGC to build its
participant databases. Finally, the audit work supporting both the source document and
participant data audits failed to meet Government Auditing Standards and did not provide
reasonable assurance as to the validity, reliability, and accuracy of the participant information.

PBGC accepted the contractor’s work even though error rates were significantly high
according to PBGC’s own protocol. Sampling error rates far exceeded BAPD’s expected error
rate of 5 percent, in one or more sub-populations for each of the seven National Steel participant
data audits. Yet, the contract auditors failed to follow the BAPD sampling procedures and,
consequently, failed to correct and re-test this data for accuracy. For example, using the sample
size and number of errors reported, we calculated the actual error rates for the following sub-
populations:

                    Plan Name                   Category Sampled          Universe Sample Number OIG Calculated
                                                                                   Size   of Errors Error Rate

Granite City Pension Plan for                   Terminated Vested         62           8    2     25%
Chemical Workers
Granite City United Steelworkers                Beneficiaries             538          22   5     23%
of America Pension Plan
National Steel Corporation                      Retirees                  4036         62   9     15%
Pension Plan Hourly Employees
National Steel Pellet Company                   Retirees                  755          52   8     15%
Pension Plan for Wage Employees

NS Corporation Retirement                       Retirees                  2306         65   8     12%
Program
National Steel Weirton Retirement               Terminated Vested         685          9    1     11%
Plan
Pension Plan for Salaried                       Retirees                  101          52   3     6%
Employees of National Steel Pellet

Table 3: Examples of a high error rate in each National Steel participant data audit


The objective of sampling (or testing of the participant database) is to gain an acceptable level of
assurance concerning the accuracy of the entire database (i.e., that the participant data contained
in the source documents 41 were accurately entered into the database). To accomplish this, the
auditor traces each sampled database record to the applicable source document. A sampling
error occurs whenever any sampled data element in the participant database does not match the
information in the applicable source document. An error can be either significant or
insignificant. 42 Although there were one or more sub-populations within each of the seven
audits that “failed” the database testing (i.e., the actual error rate exceeded the 5 percent expected

41
  The source for the participant data would typically be obtained from either paper source documents or electronic
databases maintained by the plan sponsor.
42
  Significant errors are discrepancies that affect PBGC’s ability to determine a participant’s entitlement to a benefit
or change the amount of a guaranteed benefit by more than $5 per month and affect the present value of future
benefits or mean that PBGC cannot locate the participant. Only significant errors can cause a sub-population to be
designated “Fail”.


OIG Eval 2014-01/PA-09-66-2
                                                                                                                     22
error rate for errors identified as significant), the auditors did not identify these sub-populations
as failures in their report, nor was there any evidence the auditors corrected and re-tested the data
to ensure actuaries were provided a reliable database to use in calculating participants’ benefits.
To further illustrate this point, all of the sub-populations, identified in the table above had an
unacceptable number of significant errors and should have been designated as a “fail,” thereby
properly identifying the sections of the database that required corrections and re-testing.
Although these “failed” sub-populations had error rates up to five times higher than the
acceptable error rate of 5 percent, both PBGC and the contract auditor’s management personnel
did not follow procedures and approved all seven of these reports without ensuring the proper
corrections were made to the participant databases.

Furthermore, our work also disclosed that the contract auditors incorrectly calculated many of
the sampling error rates. Instead of calculating the actual error rate for the entire sub-population,
as required by BAPD’s Operations Manual, the auditors instead calculated the error rates for
each incorrect data element within a sub-population, resulting in the reporting of much lower
error rates than the true error rate would have been for the entire sub-population. For example,
for the beneficiaries’ sub-population of the Granite United Steelworkers Plan, the auditors
calculated and reported errors for each of the seven data elements of this sub-population,
depicting error rates of 4.5 percent for each of these data elements 43; when in fact the actual error
rate for the entire beneficiaries’ sub-population was 23 percent; an error rate that was more than
four times greater than BAPD’s expected error rate of 5 percent. Once again, both PBGC and
the contract auditor’s management personnel did not follow procedures and approved these
reports with faulty calculations of error rates.


                                                       DATA ELEMENTS 44
Plan Name                 Sub-Population PBGC’s Calculated   PBGC’s Calculated                OIG’s Calculated
                                         Error Rate for the  Error Rate for the               Error Rate for the
                                         Date of Termination Date of Retirement               Sub-Population

NS Corporation            Retirees            4.6%                     3.1%                   12%
Retirement Program
Granite City United       Beneficiaries       4.5%                     4.5%                   23%
Steelworkers of America
Pension Plan
National Steel Pellet     Retirees            3.4%                     2.6%                   15%
Company Pension Plan
for Wage Employees

Table 4: Selected sub-population sampling errors in National Steel plans.




43
  Each data element had one error, with a sub-population sample size of 22, therefore deriving a 4.5 percent error
rate.
44
  Each of the sub-populations in table 4 depicted error rates for more than the two data elements identified;
however, for illustrative purposes, we chose to show examples of error rates for only two of the data elements for
each sub-population.


OIG Eval 2014-01/PA-09-66-2
                                                                                                                     23
PBGC accepted audits with premature database sampling. The final testing (sampling) of the
PDA databases for two National Steel plans was performed before all applicable participants had
been included in the databases. Specifically,

•   For the National Steel Weirton plan, the auditors performed the final testing of the participant
    database prior to determining whether to include an additional 295 participants who were
    later determined to have vested as of DOPT and therefore should have been included in the
    database. Therefore, the total participant population sampled was 11,745, but should have
    been 12,040. Additionally, the report did not mention any additional testing performed to
    validate the data supplied for these newly added 295 participants.

•   For the National Steel Hourly plan, the auditors performed the final testing of the participant
    database prior to performing work to account for transfers between plans, therefore in this
    instance the total participant population sampled was 10,388, but should have been 10,417.
    No additional testing was performed to determine the validity of the data in the database for
    these additional 29 participants.


PBGC accepted audits with questionable validity. When performing the source document
audits, PBGC’s contractor did not document the testing of the source documents obtained from
the plan sponsor. For instance, neither the work papers nor the reports detailed the sampling
methodology, such as, information concerning the size of the population or how sample sizes
were determined. The reports only show the participant category sampled and the number of
files reviewed. The reports also did not disclose the criteria for determining whether the source
documents were valid. Furthermore, the reports conclude that the source documents “are
accurate and complete,” yet make no mention as to how these conclusions were derived.

Additionally, according to PBGC’s policy, the auditors were to assess the plan sponsor’s internal
control system to help determine the validity and accuracy of the participant data supplied by the
sponsor and used by PBGC to build its participant databases. For example, there was no
evidence the contractors determined whether the plan sponsor had instituted controls to provide
reasonable assurance that participant data was recorded and processed accurately, completely
and on a timely basis, and that modifications to participant data were valid and authorized.

    B. PBGC’s Oversight of the Contractor Was Inadequate

PBGC’s oversight of the contract auditors was ineffective in identifying obvious and material
errors and omissions in the work IMRG performed on the National Steel participant data and
source document audits. According to the contract, PBGC was to conduct audits of the IMRG’s
services under the contract, “to obtain reasonable assurance that PBGC policies are being
followed and internal controls are in place and are functioning.” PBGC personnel responsible
for monitoring IMRG’s performance included the Contracting Officer’s Technical




OIG Eval 2014-01/PA-09-66-2
                                                                                                    24
Representative (COTR) and personnel within the assigned Trusteeship Processing Division
(TPD). 45

No Evidence of COTR Monitoring. PBGC provided no COTR records demonstrating any
monitoring or oversight of IMRG’s work during the performance period of the National Steel
source document and participant data audits. That is, PBGC provided no progress reports, no
documentation to support any feedback from PBGC personnel who worked directly with the
contractor, and no documents regarding the inspection and acceptance of the contractor’s
deliverables.

No Evidence of TPD Monitoring. PBGC officials advised that they were unable to locate
any evidence of TPD monitoring. We found no evidence of such monitoring. There
were no written products to show whether IMRG’s work complied with contract
performance standards related to technical quality, timeliness, demonstration of specific
expertise, and overall performance. Furthermore, in reviewing the audit work papers, we
noted that TPD personnel did not initial and date any of the work papers, as evidence of
PBGC’s review of these documents, nor did the work papers contain any review
comments or notes authored by PBGC personnel.

Although there was no corroborating evidence that PBGC personnel reviewed any of
IMRG’s work, both the PBGC manager and the PBGC auditors assigned to manage and
provide oversight for these fourteen National Steel audits signed IMRG’s audit reports
concurring with the results, supporting work papers, and attachments. Neither the PBGC
manager nor the PBGC auditors commented on the inadequacies of the contract auditors’
work or on the extensive noncompliance with Government Auditing Standards.

PBGC’s Participant Data and Source Document Audits Did Not Comply with
Contract Requirements. PBGC’s contract with IMRG required that “work products are
consistent with Government Auditing Standards” and that they comply with BAPD’s
operating manual. Government Auditing Standards, established by the Comptroller
General of the United States, are the professional standards for government auditing that
provide a framework for performing high-quality audit work with competence, integrity,
objectivity, and independence. As we found in our prior National Steel audit of IMRG’s
plan asset audit work, 46 IMRG did not follow either the Government Audit Standards or
the BAPD procedures in conducting post-trusteeship audits. If PBGC had monitored the
contractor while it was performing the work and reviewed its deliverables, PBGC should
have noted that IMRG was not complying with contract requirements, whether the more
stringent Government Auditing Standards or the BAPD manual. Following are examples
of inadequate audit work in the 14 products IMRG submitted:


45
 TPDs are divisions within BAPD with primary responsibility for activities related toterminated pension plans that
PBGC trustees.
46
  PBGC’s Plan Asset Audit of National Steel Pension Plans Was Seriously Flawed, No. 2011-10/PA-09-
66-1, issued March 30, 2011 (http://oig.pbgc.gov/pdfs/PA-09-66-1.pdf)


OIG Eval 2014-01/PA-09-66-2
                                                                                                                25
•    Incomplete audit work papers. Neither PBGC nor its contract auditor maintained a complete
     record of the auditors’ work, whether in the form of work papers or in any other written
     form. For example:

      Sampled personnel and payroll files that were to be obtained from the plan sponsor for
       analysis during the source document audit were not maintained in the work paper files;

      The databases from which the samples were selected for the auditing of the participant
       databases were not maintained in the work paper files. According to the participant data
       audit reports, these databases were archived on PBGC’s “I” drive. However, PBGC can
       no longer locate these databases;

      The source documents traced to verify accuracy of participant data were not always
       maintained; and

      The examination, evaluation, and resolution of “failed” sub-populations were not
       documented.

 The maintenance of such documentation is necessary to support the sampling confidence level
 certified by the auditor and reviewer for the participant data audits.

•    Audit work did not support the participant data audit reports’ conclusions. Due to the
     numerous flaws in the sampling methodology and the lack of evidence as to whether
     identified errors were corrected, the participant data audit sampling results did not support
     the contractor’s and PBGC’s conclusions that, “…the valuation database, as constructed, may
     be relied upon to produce reasonable plan valuation and accurate individual benefit
     calculations…”

•    No evidence that the audit engagement was adequately planned. Many of the errors and
     omissions noted previously would not have occurred if the audit had been properly planned.
     Although required by the manual, there was no audit program in the work papers. According
     to the PBGC auditor in charge of providing direct oversight for these audits, she cannot
     “recall” whether audit programs were developed for these audits.

•    No documentation of significant conclusions and judgments. Because neither PBGC nor its
     contract auditors ensured documentation of key conclusions, others -- including those who
     review the work after the fact -- do not have the necessary information to allow reliance on
     the report’s conclusions. For example, the following significant decisions were made
     concerning the audits, but were not documented in the work papers:

      The contract auditors used two different sets of criteria when performing the sampling for
       the National Steel participant data audits, yet did not disclose this in the work papers. For
       example, the then-current PBGC 47 criteria stipulated an acceptable error rate of 5 percent

47
 This section of BAPD’s Operations Manual, was dated March 28, 2003, and was entitled “12.7 Audit Participant
Database.” The National Steel participant data audits were completed in 2004 and early 2005.



OIG Eval 2014-01/PA-09-66-2
                                                                                                            26
        and sample size of 60 for large populations; while a draft PBGC 48 criteria allowed an
        acceptable error rate of only 2 percent and required sample sizes of 160 for large
        populations. Based on OIG’s review of the seven National Steel participant data audits,
        the auditors chose to follow certain aspects of both criteria, without properly
        documenting these decisions in the work papers, making it difficult to determine whether
        the sampling was accurately performed to achieve the desired confidence level
        concerning the accuracy and reliability of the entire population.

      The auditors did not document the factors used to decide which source documents to use
       to build the participant database; documentation, validity, and completeness are prime
       considerations when completing the source document audits.

      Management decisions regarding which type of errors would be considered significant
       during the participant data audits were not documented.

•    No evidence of supervisory review of work performed. Although the participant data audit
     and database construction reports were signed by IMRG officials, there was no evidence of
     supervisory reviews annotated on any of the work papers.


PBGC Personnel Ultimately Responsible for Questionable Contract Work. Although a
contractor completed the National Steel source document and participant data audits, PBGC was
ultimately responsible for ensuring the contractor provided quality products in accordance with
applicable auditing standards. In our opinion, both PBGC and its contract auditor failed in their
responsibility for ensuring that the National Steel source document and participant data audits
were conducted in accordance with applicable professional standards.

III. PBGC’s Corrective Actions Initiated During OIG’s Review

As a result of OIG’s review of PBGC’s processing of terminated National Steel and United
Airlines pension plans, the Corporation has continued to address serious weaknesses in its
benefit operations. In 2011, PBGC hired independent certified public accounting firms to
revalue the National Steel and United Airlines plan assets and then recalculated participants’
benefits based on their results. At United, most people were not affected at all, but about 34,500
people’s benefits increased slightly - on average, by less than one percent. PBGC plans to re-
issue the benefit determination letters to those participants who were affected.

In the National Steel plans, PBGC also revalued the plan assets and calculated new benefits. In
this case, it appeared that the asset values were slightly lower than originally reported, which
would have resulted in benefit decreases for some participants. However, since many years had
passed and less documentation remained, PBGC decided not to change the original benefit
determinations.

48
  This draft section of BAPD’s Operations Manual, was released November 30, 2005, and was entitled “12.7 Audit
Participant Database.”



OIG Eval 2014-01/PA-09-66-2
                                                                                                             27
In addition to re-accomplishing the original work and correcting errors, in 2012, the Deputy
Director of Operations directed a strategic review of the structure, processes and procedures of
PBGC’s benefits operations. PBGC contracted with an external consultant to support the
strategic review. In addition, PBGC hired a new Director of the Benefits Administration and
Payment Department (BAPD). Under his leadership, BAPD has a new sense of urgency in
developing effective corrective actions to address open audit recommendations and greater
transparency in communications with the OIG.

As a result of this review and other analyses performed by management, the Corporation has
begun making changes throughout the entire benefits operation, including processes,
organizational restructuring, and personnel. To date, PBGC has:

•   Recruited new leadership and staff, introduced additional training to enhance staff
    competencies and hired staff with auditing certifications;

•   Established a new group of specialists in asset evaluation, including the hiring of three
    valuation experts, and contracted with an independent certified public accounting firm to
    provide additional valuation support;

•   Improved operational and evaluation policies and procedures;

•   Improved contractor oversight, and formed an independent quality management department
    to sharpen focus on quality and accountability.


IV. Concluding Remarks

We are not making any new recommendations to PBGC as a result of our report on the
processing of National Steel Plans’ terminations. As noted in the previous section, the
Corporation has taken steps since 2011 to make significant changes to the entire benefits
operations to address weaknesses. We will continue to monitor PBGC’s progress in improving
operations, establishing and strengthening internal controls, and conducting its oversight
activities.




OIG Eval 2014-01/PA-09-66-2
                                                                                                   28
Appendix A: Scope and Methodology

The Office of Inspector General (OIG) received a request from U. S. Senators Amy Klobuchar
and Al Franken, and U.S. Congressman James Oberstar to review and examine the work of the
PBGC regarding Minnesota steelworker pension plans. This report is the second 49 and final
report we plan to issue to address the concerns of the Minnesota congressional delegation and
their constituents. The delegation requested the OIG review:

      Whether PBGC consistently applied ERISA, as well as its own regulations and policies ,
       when terminating and calculating the benefits related to pension plans of Minnesota
       steelworkers as compared to similar plans; and

      PBGC’s handling of selected participant concerns related to: shutdown benefits; PBGC’s
       process for affixing the date of plan termination; determination of a plan’s percentage of
       funding; and the applicability of the anti-cutback law to PBGC.

In an effort to address these areas of concern, the OIG reviewed selected aspects of PBGC’s pre-
trusteeship and benefit termination processes. This report focuses on PBGC’s efforts to identify
valid and accurate participant information for benefit calculations for National Steel
Corporation’s family of seven terminated pension plans; and selected aspects of PBGC’s pre-
termination process for the National Steel, LTV, and Bethlehem Steel plan terminations.

Fieldwork for this evaluation was performed from December 2010 through May 2012. The
evaluation was conducted in accordance with the Quality Standards for Inspections established
by the Council of the Inspectors General on Integrity and Efficiency, as well as applicable OIG
policies and procedures. These standards require that we plan and perform the evaluation to
obtain sufficient, competent, and relevant evidence to provide a reasonable basis for our
conclusions based on our evaluation objectives. We believe that the evidence obtained provides a
reasonable basis for our conclusions based on our evaluation objectives.

To achieve our evaluation objectives, we performed a detailed review of the seven source
document audits and seven participant data audits of National Steel Pension Plans dated June
2003 through April 2004, and accepted by PBGC in June 2003 through January 2005. PBGC’s
audits - the subject of our review - were conducted by contract auditors, under PBGC oversight,
and were intended to identify valid and accurate participant information for benefit calculations
for seven terminated National Steel pension plans.

In addition to performing a detailed review of the issued Participant Data and Source Document
Audit reports and supporting work papers and attachments, the OIG evaluation team:

1.) Identified and analyzed the laws, regulations, professional standards (including Government
    Auditing Standards and standards promulgated by the AICPA), and PBGC policy and

49
  On March 30, 2011, we issued the first report entitled, PBGC’s Plan Asset Audit of National Steel
Pension Plans Was Seriously Flawed (PA-09-66-1). This report focused on PBGC’s process to value the
assets of the National Steel Corporation’s family of seven terminated plans.


OIG Eval 2014-01/PA-09-66-2
                                                                                                      29
   guidance applicable to the Participant Data and Source Document Audit process and to
   oversight of contractors.

2.) Obtained and analyzed PBGC’s contract with IMRG for audit services to be provided
    between 2002 and 2008, as well as key documentation, progress reports, and other
    correspondence and documentation pertaining to the conduct of the National Steel Participant
    Data and Source Document Audits.

3.) Interviewed various BAPD managers; the TPD auditor who concurred with the Participant
    Data Audit reports; and various PBGC personnel with responsibility for leading the
    Participant Data and Source Document Audits of National Steel pension plans.

4.) Reviewed and analyzed the following National Steel Plan audits: Plan Document, Source
    Document, and Participant Data.

5.) Reviewed and analyzed selected Forms 5500, actuarial case memos, and certain aspects of
    PBGC’s Case Management System to compare the participant counts as of the date of plan
    termination.

6.) Conducted detailed testing of the contract auditors’ limited work papers that were available
    to support the participant data and source document audits.

7.) Reviewed the termination records for the National Steel, LTV, and Bethlehem Steel
    terminations.

8.) Reviewed applicable sections of ERISA related to plan terminations, the anti-cutback law,
    and the measurement of a plan’s funded status.




OIG Eval 2014-01/PA-09-66-2
                                                                                                   30
Appendix B: PBGC Notice to National Steel Participants, Retirees and
Beneficiaries




OIG Eval 2014-01/PA-09-66-2
                                                                       31
Appendix C: PBGC Response




        PENSION BENEFIT GUARANTY
        CORPORATION’S RESPONSE TO
              AUDIT REPORT




OIG Eval 2014-01/PA-09-66-2
                                    32
33
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.


                           Web:
       http://oig.pbgc.gov/investigation/details.html


                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
